No. 19-296

In the Supreme Court of the United States
__________

DAMIEN GUEDES; SHANE RODEN; FIREARMS POLICY
FOUNDATION, a non-profit organization; MADISON SOCIETY FOUNDATION, INC., a non-profit organization;
FLORIDA CARRY, INC., a non-profit organization; DAVID CODREA; SCOTT HEUMAN; and OWEN MONROE,
Petitioners,
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES; WILLIAM P. BARR, in his official capacity as
Attorney General of the United States; REGINA LOMBARDO, in her official capacity as Acting Deputy Director; and the UNITED STATES OF AMERICA,
Respondents.
__________

On Petition for Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit
__________

BRIEF OF THE CATO INSTITUTE
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
__________

October 3, 2019

Ilya Shapiro
Counsel of Record
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org
tburrus@cato.org

i
QUESTION PRESENTED
Is judicial deference to the executive branch’s reinterpretations of laws with both civil and criminal application consistent with the separation of powers and judicial review?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................... i
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF ARGUMENT ..................................... 1
REASONS FOR GRANTING THE WRIT .................. 3
I. APPLYING CHEVRON DEFERENCE TO THE
ATF’S POLITICALLY MOTIVATED
INTERPRETIVE REVERSAL SHORTCIRCUITS THE LEGISLATIVE PROCESS
AND VIOLATES THE SEPARATION OF
POWERS................................................................. 3
A. The ATF’s Interpretive Reversal Is Not
Based on Statutory Ambiguity, but on
Political Expediency .......................................... 4
B. Chevron Deference Raises Separation of
Powers and Political Accountability
Concerns, Particularly in Allowing the
Executive to Unilaterally Criminalize
Behavior ............................................................ 8
II. THE RULEMAKING EXPANDS ATF’S
AUTHORITY AND THREATENS TO BRING
AN UNKNOWABLE NUMBER OF FIREARMS
WITHIN THE NFA’S PURVIEW ........................ 17
CONCLUSION .......................................................... 19

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Abramski v. United States, 134 S. Ct. 2259 (2014) .. 17
Esquivel-Quintana v. Lynch,
810 F.3d 1019 (6th Cir. 2016) ................................ 17
Guedes v. BATFE, 920 F.3d 1 (D.C. Cir. 2019)......... 11
Gundy v. United States,
139 S. Ct. 2116 (2019) .................................... passim
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) ........................ 15, 17
Kisor v. Wilkie, 139 S. Ct. 2400 (2019)...................... 12
Marbury v. Madison,
5 U.S. 137, 1 Cranch 137 (1803) ...................... 12, 14
Statutes
26 U.S.C. 5845(b) ......................................................... 4
Other Authorities
82 Fed. Reg. 66514 (2018) ........................................... 4
83 Fed. Reg. 13442 (2018) ........................................ 4-6
Ali Watkins, Despite Internal Review, Justice
Department Officials Say Congress Needs to Act
on Bump Stocks, N.Y. Times, Dec. 21, 2017,
https://nyti.ms/2EFFpy9 .......................................... 7
Ali Watkins, Pressured by Trump, A.T.F. Revisits
Bump Stock Rules, N.Y. Times, Mar. 13, 2018,
https://nyti.ms/2tczdWI ............................................ 8

iv
ATF Rul. 2004-5 ......................................................... 18
Chris Dumm, Electric Cartridge Primers: Gone
But Not Lamented, The Truth About Guns,
Dec. 19, 2013 https://bit.ly/2NLkhbb ................ 18-19
Donald Trump (@realDonaldTrump), Twitter
(Mar. 23, 2018, 1:50 PM), https://bit.ly/2DPV1cY... 8
Miles, Bullpup 2016: Vadum Electronic eBP-22
Bullpup, TheFirearmBlog, Sep. 28, 2016
https://bit.ly/2IAieb1 .............................................. 18
Remarks by President Trump, Vice President
Pence, and Bipartisan Members of Congress in
Meeting on School and Community Safety
(Feb. 28, 2018), https://bit.ly/2M6Mjvz ................ 6-7
Rev. Rul. 55-528 ......................................................... 18
Sarah Herman Peck, Does ATF’s Bump-Stock Ban
Comport with the APA?, Congressional Research
Service (May 8, 2019) ............................................... 8
The Federalist No. 47 (Madison) .......................... 12-13
The Federalist No. 48 (Madison) ............................... 13
The Federalist No. 49 (Madison) ............................... 13

1

INTEREST OF AMICUS CURIAE1
The Cato Institute was established in 1977 as a
nonpartisan public policy research foundation dedicated to advancing the principles of individual liberty,
free markets, and limited government. Cato’s Robert
A. Levy Center for Constitutional Studies was established in 1989 to promote the principles of limited constitutional government that are the foundation of liberty. Toward those ends, Cato publishes books and
studies, conducts conferences, and issues the annual
Cato Supreme Court Review.
Cato addresses an issue of vital importance to limited government and individual liberty: the separation
of powers. The executive branch can no more use the
administrative process to accomplish legislative goals
that Congress declined to enact than the courts can defer to the executive branch’s novel reinterpretations of
statutes establishing new crimes. The implications of
this case extend far beyond bump stocks to the very
structure of our constitutional government.
SUMMARY OF ARGUMENT
In response to a tragic mass killing in Las Vegas,
President Trump announced that his administration
would unilaterally ban “bump-stock” devices—a type

1 Rule 37 statement: All parties were timely notified and consented to the filing of this brief. No part of this brief was authored
by any party’s counsel, and no person or entity other than amicus
funded its preparation or submission.

2

of firearm accessory reportedly used by the Las Vegas
killer. Expressly declining to pursue a legislative solution—even though the political will was likely strong
enough—the president directed his administration to
redefine bump-stock devices as automatic weapons by
reinterpreting the phrases “single function of the trigger” and “automatically,” as used in the National Firearms Act of 1934 (NFA) and Gun Control Act of 1968
(GCA). In turn, the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) broke from decades of precedent and discovered a new power to prohibit this common firearm accessory. This expansion of regulatory
authority, motivated by political expediency, is arbitrary and capricious. This change is not limited to a
ban on bump stocks. ATF has asserted the plenary authority to prohibit new classes of weapons that longextant federal law did not address. This approach
broadly expands the executive branch’s power to rewrite generally applicable criminal laws and threatens
to stifle new developments in firearm technology.
It’s also an unconstitutional exercise of the legislative power by the executive branch, unilaterally
changing a statute passed by Congress to criminalize
previously lawful conduct. Instead of fulfilling their
constitutional duty to check constitutional violations
like this one, the lower courts worsened the problem
by applying Chevron deference, which requires courts
to subjugate to the executive branch their own judicial
duty to say what the law is.

3

REASONS FOR GRANTING THE WRIT
I. APPLYING CHEVRON DEFERENCE TO THE
ATF’S POLITICALLY MOTIVATED INTERPRETIVE REVERSAL SHORT-CIRCUITS
THE LEGISLATIVE PROCESS AND VIOLATES THE SEPARATION OF POWERS
Without this Court’s intervention, American citizens will be charged, tried, and punished for a crime
created extraconstitutionally. The crime for which
they will lose liberty, property, or both is entirely a
creature of the executive branch. Instead of being
drafted in the halls of Congress and reviewed in a
courthouse, the ATF’s bump-stock rule was crafted, interpreted, and enforced from an executive office building. This violates the most basic constitutional principles by combining powers in one branch and denying
defendants their due process right to an impartial and
judicial resolution of their cases. “[W]hen the separation of powers is at stake, [the Court doesn’t] just
throw up [its] hands,” because “[t]o leave this aspect of
the constitutional structure alone undefended would
serve only to accelerate the flight of power from the
legislative to the executive branch, turning the latter
into a vortex of authority that was constitutionally reserved for the people’s representatives in order to protect their liberties.” Gundy v. United States, 139 S. Ct.
2116, 2142 (2019) (Gorsuch, J., dissenting).

4

A. The ATF’s Interpretive Reversal Is Not
Based on Statutory Ambiguity, but on Political Expediency
The NFA and the GCA include the same definition
of machinegun: “any weapon which shoots, is designed
to shoot, or can be readily restored to shoot, automatically more than one shot, without manual reloading,
by a single function of the trigger.” 26 U.S.C. 5845(b).
Between 2008 and 2016, the Bush and Obama administrations determined in a series of classifications that
“bump-stock type devices were not machine guns.” 82
Fed. Reg. 66514, 66514–18 (2018). In 2018, the current
administration reversed course. An executive action
determined that the prior classifications “do[] not reflect the best interpretation of the term ‘machinegun’
under the GCA and NFA.” 83 Fed. Reg. 13442, 13443
(2018). Indeed, the rulemaking attacks the previous
classifications for not “includ[ing] extensive legal analysis relating to the definition of ‘machinegun.’” Id.
What prompted this reversal? The proposed rulemaking reveals that the impetus for this change was
not an organic review of agency policy. Instead, the
change was triggered by public outrage following the
tragic October 2017 mass killing in Las Vegas. The
shooter reportedly used a bump-stock-type device:
Following the mass shooting in Las Vegas on
October 1, 2017, ATF has received correspondence from members of the United States Senate
and the United States House of Representatives, as well as nongovernmental organizations, requesting that ATF examine its past

5

classifications and determine whether bumpstock-type devices currently on the market constitute machineguns under the statutory definition. In response, on December 26, 2017, as an
initial step in the process of promulgating a federal regulation interpreting the definition of
‘‘machinegun’’ with respect to bump-stock-type
devices, ATF published an Advance Notice of
Proposed Rulemaking (ANPRM) in the Federal
Register.
Id. at 13446.
The ATF admits that rulemaking was commenced
“in response” to political pressure. The proposed rule
recounts the president’s role in this reversal:
On February 20, 2018, President Trump issued
a memorandum to Attorney General Sessions
concerning “bump fire” stocks and similar devices. The memorandum noted that the Department of Justice had already started the process
of promulgating a Federal regulation interpreting the definition of “machinegun” under Federal law to clarify whether certain bump stock
type devices should be illegal. The President
then directed the Department of Justice, working within established legal protocols, to dedicate all available resources to complete the review of the comments received in response to
the ANPRM, and, as expeditiously as possible,
to propose for notice and comment a rule banning all devices that turn legal weapons into
machineguns.

6

Id. (cleaned up). Publication of this NPRM is the next
step in the process of promulgating such a rule.
That process, however, was a fait accompli. On
February 28, 2018, the president hosted a meeting
with members of Congress to discuss school and community safety. Senator John Cornyn, the majority
whip, suggested that Congress could pass legislation
“on a bipartisan basis” to deal with “the bump stock
issue.” Remarks by President Trump, Vice President
Pence, and Bipartisan Members of Congress in Meeting on School and Community Safety (Feb. 28, 2018),
https://bit.ly/2M6Mjvz. President Trump interjected
that there was no need for legislation because he
would deal with bump stocks through executive action:
And I’m going to write that out. Because we can
do that with an executive order. I’m going to
write the bump stock; essentially, write it out.
So you won’t have to worry about bump stock.
Shortly, that will be gone. We can focus on other
things. Frankly, I don’t even know if it would be
good in this bill. It’s nicer to have a separate
piece of paper where it’s gone. And we’ll have
that done pretty quickly. They’re working on it
right now, the lawyers.
Id. Later during the meeting, Rep. Steve Scalise, the
House majority whip, proposed other gun-control
measures that Congress could vote on. Again, the president reiterated that there was no need to legislate on
bump stocks, because his administration would prohibit the devices through executive action:

7

And don’t worry about bump stock, we’re getting rid of it, where it’ll be out. I mean, you don’t
have to complicate the bill by adding another
two paragraphs. We’re getting rid of it. I’ll do
that myself because I’m able to. Fortunately,
we’re able to do that without going through
Congress.
Id.
The president left little doubt how his administration would “clarify” the NFA and GCA. Yet, according
to press accounts, there was internal dissent about
whether the executive branch had the statutory authority to prohibit bump stocks. “[P]rivate and public
comments from Justice Department officials following
the October shooting suggest there is little appetite
within the agency to regulate bump stocks, regardless
of pressure from the Trump administration.” Ali Watkins, Despite Internal Review, Justice Department Officials Say Congress Needs to Act on Bump Stocks, N.Y.
Times, Dec. 21, 2017, https://nyti.ms/2EFFpy9. DOJ
officials reportedly told Senate Judiciary Committee
staff that the government “would not be able to take
[bump stocks] off shelves without new legislation from
Congress.” Id. Likewise, the ATF director told police
chiefs that his agency “did not currently have the regulatory power to control sales of bump stocks.” Id.
While the department stated that “no final determination had been made,” President Trump boasted
that the “legal papers” to prohibit bump stocks were
almost completed. Indeed, moments before the rulemaking was announced, President Trump tweeted:

8

“Obama Administration legalized bump stocks. BAD
IDEA. As I promised, today the Department of Justice
will issue the rule banning BUMP STOCKS with a
mandated comment period. We will BAN all devices
that turn legal weapons into illegal machine guns.”
Donald Trump (@realDonaldTrump), Twitter (Mar.
23, 2018, 1:50 PM), https://bit.ly/2DPV1cY. “The reversal was the culmination of weeks of political posturing
from Mr. Trump, whose public demands have repeatedly short-circuited his administration’s regulatory
process and, at times, contradicted his own Justice Department.” Ali Watkins, Pressured by Trump, A.T.F.
Revisits Bump Stock Rules, N.Y. Times, Mar. 13, 2018,
https://nyti.ms/2tczdWI.
B. Chevron Deference Raises Separation of
Powers and Political Accountability Concerns, Particularly in Allowing the Executive to Unilaterally Criminalize Behavior
1. Deferring to agency interpretations like the
ATF’s redefinition of “machinegun” short-circuits the
legislative process and lessens political accountability.
Banning bump stocks was hardly out of congressional
reach. Even now, “codifying the bump-stock ban
through legislation would eliminate challenges to the
rulemaking process,” like the one here. Sarah Herman
Peck, Does ATF’s Bump-Stock Ban Comport with the
APA?, Congressional Research Service, May 8, 2019,
https://fas.org/sgp/crs/misc/LSB10296.pdf. Instead, as
discussed above, the executive branch pushed the ban
through for political expediency. The president even

9

discouraged Congress from taking up the issue, despite the political will to do so. While the president’s
approach may have been quicker and required fewer
compromises going through the proper channels of bicameralism and presentment, there are good reasons
to be wary of this method of policymaking.
Allowing the executive branch to reinterpret existing statutes in ways that directly contradict past legal
interpretation to achieve new policy goals leads to bad
law and bad politics. The executive branch is designed
to execute existing laws, not write new ones. Its powers are limited, to some extent at least, by the language of the statutes that it is interpreting and enforcing. When an existing statute is stretched to accomplish a policy objective it wasn’t meant to address, it
leads to bad law. What was appropriate for one situation may not be appropriate for another, even if they
appear similar at first glance. Nuance matters.
At the same time, when the executive takes over
legislation (and the judiciary allows it), it can lead to
bad politics by disincentivizing Congress from acting.
Government actions are rarely if ever universally
loved. There will always be some level of political opposition. As politicians, members of Congress need to
ensure that they please their constituents while aggravating few. Executive branch policy-making gives
members of Congress an out by “solving” the policy
problem without political accountability for members.
One role of the judiciary is to limit the extent to
which Congress can pass the buck by policing the constitutional lines between the other branches. What

10

happens when the courts don’t step in? Over time, the
members of Congress grow more dependent on the executive to do their job for them and less willing to deal
with national issues. This is a problem, because Congress is, by design, the body best able to consider national issues. Representation from across the country
introduces a diversity of viewpoints, interests, and
perspectives. That diversity of views and the bicameral nature of Congress help create bills that reflect
both the will of the people and the nuances of the issue.
Congress is also far more accountable to the people
than is the executive branch. The president and vice
president are elected, to be sure, but in a more attenuated way than members of Congress. Nevertheless,
most lawmaking happens in the myriad executive
agencies, performed by thousands of unelected bureaucrats. Given the number of rules, policies, and legal interpretations executive agencies take behind the
scenes, holding a president responsible for every decision his administration makes is impractical. Members of Congress, by contrast, are elected by smaller
constituencies that can hold them accountable for
their speeches, bills, and votes on a variety of topics.
Getting a bill through Congress is difficult. In fact,
“the framers went to great lengths to make lawmaking
difficult” in order to protect liberty and “promote deliberation.” Gundy, 139 S. Ct. at 2134 (Gorsuch, J., dissenting). The lawmaking process was “also designed to
promote fair notice and the rule of law, ensuring the
people would be subject to a relatively stable and pre-

11

dictable set of rules.” Id. The number of elected officials and governmental bodies required to pass a new
statute ensure that the process can’t be undone on a
whim. By contrast, legislating by the executive branch
can be, and frequently is, undone when the next administration comes into power. This leads to a great
deal of instability and legal uncertainty, as the rules
can change every four years.
The bump-stock ban is an excellent example. A previously legal device become illegal without any new
bill being passed into law. “The ATF’s interpretation
of ‘machinegun’ gives anything but fair warning—instead, it does a volte-face of its almost eleven years’
treatment of a non-mechanical bump stock as not constituting a ‘machinegun.’” Guedes v. BATFE, 920 F.3d
1, 41 (D.C. Cir. 2019) (Henderson, J., concurring in
part and dissenting in part). And, as discussed infra,
the instability of the status of bump stocks threatens
more than this one device. Companies will be less
likely to innovate and create new devices and consumers will be less likely to buy them if ownership could
become criminal at the whims of the executive. “[I]f
laws could be simply declared by a single person, they
would not be few in number, the product of widespread
social consensus, likely to protect minority interests,
or apt to provide stability and fair notice.” Gundy, 139
S. Ct at 2135 (Gorsuch, J., dissenting). Instead, they
would create an unsteady legal environment and an
unconstitutional arrangement of government power.
2. Several members of this Court have recently expressed concern over the separation-of-powers issues

12

raised by both the executive branch’s exercising delegated legislative authority, id. at 2130–31 (Alito, J.,
concurring in judgment) and 2131–48 (Gorsuch, J.,
dissenting), and the judicial branch’s deferring to the
executive branch’s legal interpretations, Kisor v.
Wilkie, 139 S. Ct. 2400, 2425–48 (2019) (Gorsuch, J.,
concurring in judgment) and 2448–49 (Kavanaugh, J.,
concurring in judgment). Both these separation-ofpowers issues are intertwined in this case.
The first issue occurs when the executive branch
reinterprets a statute to criminalize behavior that
wasn’t within the statute’s reach at the time of enactment. In so doing, the executive branch exercises the
federal legislative powers that properly belong exclusively to Congress. This is particularly concerning
when the clear goal of the reinterpretation is to enact
the administration’s policy preferences rather than to
honestly and fairly interpret the legal meaning of the
statute. The second separation-of-powers issue is enabled by the first and occurs when the judiciary defers
to that agency reinterpretation. This deference cedes a
portion of judicial power to the executive branch and
prevents the judiciary from fulfilling its “duty . . . to
say what the law is.” Marbury v. Madison, 5 U.S. 137,
177, 1 Cranch 137 (1803). Combined, these two issues
lead to a single branch of government exercising all
three powers—legislative, judicial, and executive.
“The accumulation of all powers, legislative, executive, and judiciary, in the same hands, whether of one,
a few, or many . . . may justly be pronounced the very

13

definition of tyranny.” The Federalist No. 47 (Madison). Separation of powers was a core concern of the
Framers, who had “seen that the tendency of republican governments is, to an aggrandizement of the legislative, at the expense of the other departments,”
through their experience with the British parliament.
The Federalist No. 49 (Madison). Having experienced
the consequences of a single branch of government exercising all three powers, among the Framers it was
agreed on all sides, that the powers properly belonging to one of the departments, ought not to
be directly and completely administered by either of the other departments. It is equally evident, that neither of them ought to possess, directly or indirectly, an overruling influence over
the others in the administration of their respective powers.
The Federalist No. 48 (Madison).
Madison recognized that there is a lack of separation of powers not only when one branch directly exercises “an overruling influence” over another branch
but also when it does so indirectly. What would an indirect “overruling influence” look like? In a word,
Chevron. Chevron deference does not involve the executive branch directly ordering the courts to follow its
legal interpretation—here, the executive explicitly
asked the court not to apply Chevron deference. Instead, the executive’s usurpation of the judicial power
comes about indirectly, through the judicial branch’s
self-imposed deference to the executive’s decisions.
Whether direct or indirect, however, a rule that grants

14

the executive branch the “overruling influence” over
the judiciary of the sort that Chevron requires “sounds
all the alarms that the founders left for us.” Gundy,
139 S. Ct. at 2144 (Gorsuch, J., dissenting).
Chief Justice Marshall famously wrote that “[i]t is
emphatically the province and duty of the judicial department to say what the law is.” Marbury, 5 U.S. at
177. Less frequently quoted is the next sentence:
“Those who apply the rule to particular cases, must of
necessity expound and interpret that rule.” Id. Expound and interpret, not defer. Chevron deference, especially for laws that carry criminal penalties, is
plainly inconsistent with the duties of the judiciary under the Constitution. A doctrine that requires the
courts to subjugate their own legal and constitutional
determinations of the meaning and limits of executive
power is incompatible with the principle of judicial review. It would make little sense for the Constitution to
give the judiciary the duty to determine the constitutional limitations of the other branches while also permitting the judiciary to fulfill that duty through deference to the other branch in question.
It is certainly more efficient to have a single branch
of government write, interpret, and enforce the laws,
particularly when that branch is not subject to legislative debate and compromise. But our Constitution was
hardly drafted to maximize government efficiency.
“Some occasionally complain about Article I’s detailed
and arduous processes for new legislation, but to the
framers these were bulwarks of liberty.” Gundy, 139 S.
Ct. at 2134 (Gorsuch, J., dissenting).

15

The Framers designed the Constitution to prevent
problems precisely like the one in this case from arising. Here, instead of legislating policy through bicameralism and presentment, the bump-stock ban was enacted by little more than executive edict. Instead of
subjecting that edict to rigorous judicial review, the
court deferred to the executive and allowed its determination of the law to supersede the court’s own.
Thankfully, as a judicially created doctrine, Chevron deference and its harms are easily remediable by
this Court. Doing away with Chevron deference—for
criminal penalties at minimum—would open the Court
to critically examining executive action to ensure that
it remains within constitutional bounds. Enforcing the
separation of powers would not “dictate any conclusion
about the proper size and scope of government,” but
would simply require that, whatever their scope, the
powers of government are exercised by the appropriate
branches. Id. at 2145 (Gorsuch, J., dissenting). Chevron allows the executive to “say what the law is” in
place of the judiciary, most disturbingly in instances
where new crimes are created out of thin air. By deferring to the executive, courts fail to fulfil “their duty to
interpret the law and declare invalid agency actions
inconsistent with those interpretations in the cases
and controversies that come before them. A duty expressly assigned to them by the APA and one often
likely compelled by the Constitution itself. That’s a
problem for the judiciary.” Gutierrez-Brizuela v.
Lynch, 834 F.3d 1142, 1153 (10th Cir. 2016) (Gorsuch,
J., concurring). It’s a problem for the country too.

16

3. Deference to executive branch interpretations of
the law is troubling no matter the context. This case is
even more concerning, however, because the executive
interpretation in question criminalizes previously legal conduct. If courts defer to ATF’s criminalization of
bump-stock ownership, then the executive branch will
have created an entirely new crime that it will then
enforce without judicial review to determine if the rule
creating the crime in question is even lawful. This is
concerning for several reasons. First, as petitioners
discuss, it violates the rule of lenity, which generally
requires courts to construe criminal laws narrowly, absent specific congressional direction otherwise. Chevron instead gives the executive branch incentive to
adopt the broadest possible definitions, with the assurance that they will later receive deference.
Second, the concerns discussed above regarding accountability and nuance in lawmaking are worsened
when the law imposes criminal penalties. Stretching
any law to cover conduct not previously contemplated
causes problems, but stretching a law with criminal
penalties makes lawful conduct criminal without any
congressional involvement. Creating criminal law
through executive fiat erodes the legitimacy of the justice system and give rise to due process violations each
time people are fined or imprisoned for crimes their
elected representatives had no say in creating. A statute’s poor fit to unforeseen circumstances leads to errors and unintended consequences.
Third, and most seriously, separation-of-powers
principles are most vital when the power exerted could

17

deny a citizen his liberty or property. The Court “has
expressly instructed [lower courts] not to apply Chevron deference when an agency seeks to interpret a
criminal statute,” because “seemingly . . . doing so
would violate the Constitution by forcing the judiciary
to abdicate the job of saying what the law is and preventing courts from exercising independent judgment
in the interpretation of statutes.” Gutierrez-Brizuela,
834 F.3d at 1156 (Gorsuch, J., concurring) (citing
Abramski v. United States, 134 S. Ct. 2259, 2274
(2014)). As Judge Sutton has noted:
Since the founding, it has been the job of Article
III courts, not Article II executive-branch agencies, to have the final say over what criminal
laws mean. I would . . . reject the idea that Congress can end-run this principle by giving a
criminal statute a civil application.
Esquivel-Quintana v. Lynch, 810 F.3d 1019, 1032 (6th
Cir. 2016) (Sutton, J., concurring in part and dissenting in part). Chevron is generally problematic, but particularly so with regard to criminal statutes.
II. THE RULEMAKING EXPANDS ATF’S AUTHORITY AND THREATENS TO BRING AN
UNKNOWABLE NUMBER OF FIREARMS
WITHIN THE NFA’S PURVIEW
The proposed rule would not only ban bump stocks.
ATF’s expanded definition of “automatically” places an
unknowable amount of firearm owners in criminal
peril. For example, crank-operated Gatling guns have
never been considered “machineguns” under the NFA.

18

See Rev. Rul. 55-528, 1955-2 C.B. 482. Gatling guns
fire when the operator rotates a crank, which cocks
and releases a series of strikers, firing successive
rounds of ammunition. The crank mechanism of a Gatling guns requires far less “manual input” than does a
bump stock. Accordingly, under the proposed rulemaking, Americans with Gatling guns face a credible
threat of prosecution.
Moreover, ATF has previously distinguished manually operated guns from electrically operated versions. An M-134 “minigun” for example, is considered
a machinegun. ATF Rul. 2004-5. Functionally, it resembles a Gatling gun, except the role of the crank is
performed by an electric motor, which is activated by
a switch. This type of weapon differs from a Gatling
gun in one way: it fires continuously by pressing an
electric switch rather than manually turning a crank.
For decades, a machinegun was understood to fire continuously without additional manual input. The ATF’s
expansive interpretation obliterates this distinction.
Cf. id. (ATF’s previous explanation that the Gatling
gun “is not a ‘machinegun’ as that term is defined . . .
because it is not a weapon that fires automatically”).
There are many novel semi-automatic firing mechanisms that exist, including solenoid-actuated mechanical triggers and electric-fired primers. See, e.g.,
Miles, Bullpup 2016: Vadum Electronic eBP-22 Bullpup,
TheFirearmBlog,
Sept.
28,
2016
https://bit.ly/2IAieb1; Chris Dumm, Electric Cartridge
Primers: Gone But Not Lamented, The Truth About

19

Guns, Dec. 19, 2013 https://bit.ly/2NLkhbb. Indeed, innovation abounds, and new mechanisms will likely
come to market in the future. These new approaches
can improve the accuracy of a firearm, provide access
to the disabled, and even make guns safer. ATF should
not be allowed to arbitrarily re-interpret a statute targeting machineguns to lock firearm technology in time
and put innovators in peril of being locked in prison.
Congress may in future decide to update existing
statutes to cover innovations in firearms technology.
In so doing, it can take testimony and weigh the pros
and cons of expanding the ban on certain firing mechanisms. That’s Congress’s job, not the president’s.
CONCLUSION
The Court should grant certiorari.
Respectfully submitted,

October 3, 2019

Ilya Shapiro
Counsel of Record
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org
tburrus@cato.org

